U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

October 17, 2019
The Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C.
20543
Re:

Mark A. Beckham v. United States of America,
No. 19-208

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed August 12,
2019, and placed on the docket on August 19, 2019. The government's response is now due,
after one extension, on October 18, 2019.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including November 21, 2019, within which to file the government's response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government's response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.

Sincerely,
Noel J. Francisco
Solicitor General

cc:

See Attached Service List

19-0208
BECKHAM, MARK A.
USA

JUSTIN K. GELFAND
MARGUTJS GELFAND, LLC
8000 MARYLAND AVENUE
SUITE 420
ST.LOUIS, MO 63105
314-390-0234
JUSTIN@MARGULISGELFAND.COM

